<html>
<title> - [H.A.S.C. No. 110-142] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2009 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                                     

                         [H.A.S.C. No. 110-142]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2009

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                AIR AND LAND FORCES SUBCOMMITTEE HEARING

                                   ON
    BUDGET REQUEST ON ARMY NATIONAL GUARD AND ARMY RESERVE EQUIPMENT

                               __________

                              HEARING HELD
                             APRIL 3, 2008

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13





                     U.S. GOVERNMENT PRINTING OFFICE

43-480 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                    AIR AND LAND FORCES SUBCOMMITTEE

                   NEIL ABERCROMBIE, Hawaii, Chairman
JOHN SPRATT, South Carolina          JIM SAXTON, New Jersey
SOLOMON P. ORTIZ, Texas              HOWARD P. ``BUCK'' McKEON, 
SILVESTRE REYES, Texas                   California
ADAM SMITH, Washington               JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ELLEN O. TAUSCHER, California        FRANK A. LoBIONDO, New Jersey
ROBERT A. BRADY, Pennsylvania        TOM COLE, Oklahoma
JIM MARSHALL, Georgia                ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
HANK JOHNSON, Georgia                PHIL GINGREY, Georgia
JOE SESTAK, Pennsylvania             CATHY McMORRIS RODGERS, Washington
GABRIELLE GIFFORDS, Arizona          GEOFF DAVIS, Kentucky
KENDRICK B. MEEK, Florida            W. TODD AKIN, Missouri
KATHY CASTOR, Florida                DOUG LAMBORN, Colorado
                  Doug Bush, Professional Staff Member
               Jesse Tolleson, Professional Staff Member
                 John Wason, Professional Staff Member
                      Ben Glerum, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Thursday, April 3 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request on Army National Guard and 
  Army Reserve Equipment.........................................     1

Appendix:

Thursday, April 3, 2008..........................................    35
                              ----------                              

                        THURSDAY, APRIL 3, 2008
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
             ARMY NATIONAL GUARD AND ARMY RESERVE EQUIPMENT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Chairman, 
  Air and Land Forces Subcommittee...............................     1
Saxton, Hon. Jim., a Representative from New Jersey, Ranking 
  Member, Air and Land Forces Subcommittee.......................     3

                               WITNESSES

Stultz, Lt. Gen. Jack C., Chief, U.S. Army Reserve, U.S. Army....     9
Vaughn, Lt. Gen. Clyde A., Director, Army National Guard, U.S. 
  Army...........................................................     5

                                APPENDIX

Prepared Statements:

    Stultz, Lt. Gen. Jack C......................................    42
    Vaughn, Lt. Gen. Clyde A.....................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:


    Mr. Abercrombie..............................................    77
    Mr. Spratt...................................................    79
    Mr. Wilson...................................................    80
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
             ARMY NATIONAL GUARD AND ARMY RESERVE EQUIPMENT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Air and Land Forces Subcommittee,
                           Washington, DC, Thursday, April 3, 2008.
    The subcommittee met, pursuant to call, at 2:07 p.m. in 
room 2118, Rayburn House Office Building, Hon. Neil Abercrombie 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE 
    FROM HAWAII, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Abercrombie. Aloha, everybody. Thank you so much for 
coming today. I have an opening statement that I would like to 
read for purposes of the record before I turn to my good friend 
and mentor Mr. Saxton.
    The Air and Land Forces Subcommittee meets today to receive 
testimony on the equipment status and ground requirements of 
the Army National Guard (ANG) and the Army Reserve. The panel 
includes Lieutenant General Clyde Vaughn, Director of the Army 
National Guard--aloha, General Vaughn, thank you for being 
here--and Lieutenant General Jack Stultz, Chief of the Army 
Reserve. General, aloha to you.
    The purpose of today's hearing is to get a straightforward 
assessment as opposed to an elliptical, tangential assessment 
of the equipment needs of the Army National Guard and the Army 
Reserve. The witnesses have been asked to clearly lay out what 
equipment levels their organizations are required to have, how 
those requirements have changed, as well as what equipment 
levels they actually have on hand.
    They have also been asked to provide their views on the 
adequacy of the fiscal year 2009 budget request for equipping 
their elements of the Army.
    While the most important element of the Army is its people, 
obviously, equipment comes in a very close second. There are 
many elements the military considers when it judges a unit, and 
I quote, combat ready, unquote. One of those elements is the 
unit's equipment.
    Compared to other measures of readiness, equipment 
readiness is fairly straightforward. Either you have the 
equipment you need, or you don't. Without the right type and 
amounts of equipment, even the most dedicated and experienced 
soldier cannot train for combat or help when there is a 
domestic emergency.
    However, for a variety of reasons that today's hearing will 
explore, the number of units in the Army National Guard and the 
Army Reserve that can report the highest level of equipment 
readiness has declined significantly since 2001. While most 
guard and reserve units deployed overseas have all of the 
equipment they require, many of those units do not get that 
equipment until just before and in some cases after they 
deploy, which makes training to deploy very difficult.
    In addition, a large percentage of nondeployed guard and 
reserve units are far below Army standards for equipment on 
hand.
    If this situation persists, in our judgment, it could lead 
to National Guard units that, while very dedicated and willing, 
are simply not able to adequately respond to domestic 
emergencies, let alone train for combat.
    No amount of desire or willpower, however noble, can 
overcome a lack of transportation, communication and 
construction equipment when a National Guard unit is trying to 
help people hit by a tornado or a hurricane.
    If this situation persists, it could lead to Army Reserve 
units that cannot train for their combat missions, which would 
disrupt deployment timeliness were an emergency Army deployment 
situation to occur in South Korea or anywhere else.
    The Army Reserve units play a critical logistics role in 
all Army overseas deployments, so if large numbers of them are 
not able to train to standards that deploy on time, it can 
imperil the lives of countless other soldiers.
    The increasing number of units that do not have their 
required equipment is even more significant today, given the 
ongoing use of the guard and reserves, as I again quote, 
operational reserve forces, unquote, that are routinely now 
called up for service, in comparison to Cold War strategic 
reserve, and again I quote, models that assume very few 
mobilizations. This is a substantial difference that I am not 
sure is entirely appreciated by the American public.
    This change to an operational reserve has greatly increased 
the amount of the equipment guard and reserve units are 
required to have, yet it appears that the Army's ability to 
actually provide the equipment to meet these new and 
appropriately higher standards has lagged.
    Thankfully, Congress has not sat idle. This is the self-
serving part of the statement. Congress has not sat idle while 
the equipment readiness in many Army National Guard and Army 
Reserve units has deteriorated. That is to say I believe this 
particular subcommittee recognizes it and wants to do something 
about it in conjunction with your recommendations and 
experience.
    Since 2003, the Congress has provided $10.7 billion in 
additional funding for guard and reserve equipment above that 
which was in the President's budget request--and I doubt there 
was going to be much in the way of testimony from either of you 
today that this constitutes pork-barrel spending because it 
wasn't in the President's budget request.
    Perhaps some of those who shoot their mouths off in the 
press about what constitutes a Member initiative with respect 
to the strategic interests of this country will take another 
look at whether this President or any President, regardless of 
his or her party, has requested, or whether or not--in that 
context, whether or not the judgment of the Congress might be 
as good or better than the President, whoever that may be.
    This funding has enjoyed sustained bipartisan support, I 
would venture to say nonpartisan support--I don't think it is 
an issue of parties in any respect--both on this subcommittee, 
on the committee as a whole, and throughout Congress.
    A major issue I hope to see some light shed upon today is 
where did all this money go, the $10.7 billion? How much of it 
was used to provide additional equipment intended for the guard 
and reserve? Has any of it been siphoned off by the Army or the 
Department of Defense (DOD) for other needs that were deemed 
more pressing at the time? That may very well have been the 
case, and it may have been justified, but we need to know in 
order to see whether we need to alter our funding precepts as 
we present this budget.
    Why do deployment readiness rates continue to remain very 
low for many nondeployed units despite what, by any measure, is 
a massive infusion of additional funds?
    For the 2009 budget, what more needs to be done by 
Congress; by this subcommittee to begin with, and by the 
Congress by extension? What more needs to be done to continue 
to address this problem, either through legislation or funding? 
We are counting on you for information and perspective in that 
regard.
    Before we begin, and before I begin formally with the 
hearing, and before I turn to Mr. Saxton, I would like to 
comment briefly on another subject; that is to say media 
reports on a recent Department of Defense Inspector General 
report on the Army and the Marine Corps body armor procurement 
process.
    Previously we have found that media coverage of the 
Pentagon force protection equipment procurement does not always 
tell the whole story by any stretch of the imagination. We will 
sit down with both the Army and the Department of Defense 
Inspector General in the immediate future and seek to establish 
all the facts.
    Our Army acquisition hearing is next week, and we will 
address the issue at that time. So to the degree or extent 
either of you may have had your testimony or your thoughts 
impacted by this latest media foray into something they don't 
know anything about but want to tell the rest of us, you 
needn't concern yourself with it today unless you want to touch 
on it by extension.
    That said, I would now like to turn to my good friend and 
colleague from New Jersey, the Honorable James Saxton.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE FROM NEW JERSEY, 
        RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Saxton. Thank you, Mr. Chairman.
    General Vaughn and General Stultz, thank you both for your 
great service to the country.
    Recently General George Casey, the 36th Chief of Staff of 
the United States Army, has testified in public hearings and 
spoken privately with many Members of Congress about the Army 
being out of balance.
    According to General Casey, ``Balance is a state of 
continual readiness that provides strategic flexibility and 
depth while sustaining the all-volunteer force and 
simultaneously meeting the current and future demands of the 
national security strategy in an era of persistent conflict.'' 
Obviously a critical piece of the readiness equation that 
General Casey talks about is the availability of equipment.
    While I have often said that all of the services are out of 
balance, nowhere is it more evident than in the equipment 
status of the Army National Guard and the Army Reserve.
    The Reserve component has faced many additional challenges 
because it started this long war postured, as we all know, as a 
strategic force. For decades we postured the National guard and 
reserve with the Cold War mindset. We believed we could accept 
risk in equipping and training the Reserve component because we 
thought there would be a clear, unambiguous signal to get us 
ready. We also believed there would also be sufficient time to 
field the equipment and get them trained before they would need 
to be on the battlefield.
    The need for a ready, well-equipped and integrated Reserve 
component is now clear; however, the shortfalls in equipment, 
or, as previously put, the holes in the yard, prior to 2001, 
make the Reserve component transition to be a modernized, 
operational, ready Reserve particularly challenging today.
    Although substantial progress has been made, there is much 
more to be done. In 2001, the Army had a $56 billion shortfall 
in major weapons systems and modernization funding. The Army is 
now on a path to reduce that to $17.4 billion by 2013. The 
Reserve component was a large part of that number and will 
benefit greatly from investments being made to modernize and 
equip the Armed Forces.
    I believe that if Congress is really serious about properly 
equipping our Reserve components, then the prudent path forward 
is to increase the Army budget. Strong national security 
doesn't come without a price tag. I have said many times that 
our top line is too low. The President's fiscal year 2009 
budget request for $515.4 billion in defense spending is a step 
in the right direction.
    The relative cost is not as overwhelming as one would 
think. National spending on defense as a percentage of our 
gross domestic product is relatively low. This year's base 
budget request equals 3.4 percent of GDP. To put this in 
perspective, the National Retail Federation estimated holiday 
sales in 2007 was also at 3.4 percent of GDP.
    Let's not recite the conditions of the 1990's, which are 
particularly responsible--which are partly responsible for 
putting the Army and the Reserve components out of balance in 
the first place.
    I look forward to hearing from each of our witnesses today, 
Mr. Chairman, on the equipment challenges and the tools they 
need to get the job done for our Nation. Thank you again for 
being with us today.
    Mr. Abercrombie. Thank you very much, Mr. Saxton.
    We will proceed to the panel's testimony, then go into 
questions.
    Without objection, gentlemen, your prepared statements are 
included in the hearing record. What we would ask is you give a 
summary. As I hope you have been informed, I do not want 
large--I try to avoid large panels anyway, if I can, because I 
think we get lost in the weeds.
    You are not going to be restricted to five minutes in your 
opening statement. I leave it to you to be as succinct as 
possible so we can get to the questions. When we do, we will 
proceed in reverse order of seniority during this hearing, 
reverse order. That means you are up and Mr. Wilson. It is easy 
to do it today, to figure out who is going to do what.
    We will start with General Vaughn.

STATEMENT OF LT. GEN. CLYDE A. VAUGHN, DIRECTOR, ARMY NATIONAL 
                        GUARD, U.S. ARMY

    General Vaughn. Thank you, Chairman Abercrombie, 
Congressman Saxton and distinguished Members.
    As you have said, I have asked that my statement be read 
into the record, and I would just like to talk off the cuff and 
kind of synopsize, I think, basically what is in there.
    As you talk to the strategic versus the operational 
reserve, what a great question, you know, as we look backwards 
at that and where we were in 2001 or 2000 or 1999, or you just 
pick a date.
    But I would ask you what we really expected that strategic 
reserve to do, because, you know, when everything was said and 
done, there were a couple of great myths out there, and one of 
them dealt with the equipment. For the Reserve components, Jack 
and I sitting here, that meant we took what we had, and we 
reported to the main operations base (MOB) station, and from 
someplace this magic wand of equipment was going to appear and 
equip our force.
    Everyone knew that we were in terrible shape in Reserve 
components as far as modernization. It was a legacy force. Most 
of what we have been given for many, many years, if it wasn't 
for Congress adding on, especially in the national guard and 
reserve equipment account, over all of those years, we wouldn't 
have had anything modernized. That is just a fact. So we found 
ourselves in the aftermath of 2001 before the big conflict 
started that we were maybe at 70 percent.
    We can go into and we will go into how we measure 
equipment, but if we were at 70 percent--and Jack and I would 
talk about sometimes the Army Guard was the largest holder of 
all of these antique M-35 trucks which we found out weren't 
deployable. We have lots and lots of equipment, as you well 
know, that weren't deployable.
    Mr. Abercrombie. Excuse me, General, just so we are 
absolutely clear, when you are talking about percentages of 
equipment, you are going to differentiate; are you not? Because 
you could have 70 percent of equipment and counting computers 
and garbage cans, right? That is not what we are talking about.
    General Vaughn. I am going to differentiate, sir, and I 
will get into it, sir.
    Jack, as I said, my friend to the left here, has got one 
that says, yes, we have got 96 percent of a GP medium, 10--all 
right, we have got 96 percent of the 10 stakes, ropes and 
poles, but we don't have the tent. So, you know, in a lot of 
instances, if you get into the piece that you are talking 
about, that is how you end up comparing the aegis across the 
force.
    But say we were by some measure at 70 percent. By the time 
we deployed what little bit of modernized equipment we had 
forward, and then, by the way, it was left in country, when we 
came back to home station, what we had wasn't fit to train on 
because it wasn't interoperable with the stuff that was 
downrange, and we were told at that time, don't deploy this, 
this, this and this.
    Now, if you start from that point and come forward, and we 
had a couple of activities happening in 2005--one of them being 
Katrina and Rita. And with Katrina and Rita, you know, we 
deployed all of that equipment all the way across the United 
States down there rather rapidly. One of the things that we 
were concerned about was what did the states really have back 
that they could respond to a hurricane disaster, a terrorist 
activity? What was really back here?
    So we took our staff and said, look, let's get the States 
involved in this. And by the way, what I am taking you through 
is the genesis of the 342. We drove that. We brought the states 
in and said what--what is it that is common with all the 
equipment that is out there that we should have first dibs on 
if there was any question as to whether something should come 
from the active force and be left downrange or come from the 
guard force and be left downrange?
    By the way, we need to be able to go back and tell the G3 
of the Army just how spectacular this is when you make that 
kind of a decision to leave that downrange and how that affects 
the States. So all of us want every soldier, sailor, airman or 
marine to have the right kind of equipment, but what we wanted 
to point out, if there was a choice to make, we ought to bring 
some of this equipment back that has a purpose.
    So the number 342, which you heard many times, there are 
342 various kinds of line items which were settled out at. Is 
that the right number? Probably isn't because you can't be 
perfect on it. From my standpoint, after looking at it for some 
time probably, I wouldn't have included personal weapons on all 
the personal gear these soldiers have in there because it sways 
it artificially. As you well know, the large major end items 
count for the same as one rifle.
    So probably the view is that every soldier--you know, we 
owe it to every soldier to have all of this personnel 
equipment, and we look at that again and figure out what that 
is. So when we come up with the 342, the next piece was--and we 
work this--at that time we worked it and transitioned it with 
the Army staff--worked it pretty close, by the way, with the 
Army staff. What we did was we took the average of all those 
lines, of all those 342s. If we were 100 percent of all weapons 
all the way down, we averaged each one of those out, added them 
all up, and come up with an average, because you know what they 
wanted right away: How does this affect every State? Well, the 
bigger issue was how does it affect a national fleet percentage 
on how well you are doing, which is where you are going in your 
opening statement, where you went.
    Okay, so we arrived at a percentage, which was an average 
of--averages of all those line items all the way down. That 
brought a lot of the attention to something, and that was the 
fact that, exactly like you stated, we didn't have much left, 
and, oh, by the way, what was modernized, we had to take to the 
training stations, you know, to help mobilize and train our 
soldiers.
    We didn't have a lot of equipment left. We didn't have any 
equipment left, virtually, at home station to do the 
premobilization side of that.
    So, as we started putting that percentage down, it got a 
lot of attention, as you well know. When we looked at where we 
were--and I think the Secretary of Defense (SECDEF) testified 
on this. He says it fell to about 40 percent in 2006. We took 
all the subs out of that number, substitute items.
    The reason I say substitute items--and one of the big ones 
were the deuce-and-a-halves that averaged 35 years of age. One 
of the problems with those deuce-and-a-halves we included as a 
strategic reserve, there is no maintenance expenditure level on 
most of the deuce-and-a-halves. You are not even authorized to 
change the tire because the percentage is zero.
    So I ask you, when you go back and look at what we had as 
the strategic reserve, if we were going to deploy all of this 
force at one time, it was a joke. We couldn't have done that; 
that was a joke. We couldn't have done that.
    The only reason we kept up to what we are doing now is 
because we are deploying that force incrementally and giving 
everybody the right equipment at the right time just before we 
go over the berm, as you well know and you have heard folks 
testify. We have heard that probably, up to tonight, up to 
2007. Again, the Secretary of Defense testified 49 percent. 
That is probably about right. But there has never been a fleet-
managed percentage across the Army that says here is the figure 
and here is what it is.
    Now, I have to tell you that we kind of like the idea of 
taking dollar averages because it kind of tells you how much 
equipment is left out there and what the price of it is. But it 
kind of changes the figure, you know, midstream. So when the 
new Secretary or the Chief of Staff of the Army coming in said, 
you know, we need to be by regulation here, what is the closest 
thing we have to regulation, which is 220-1 here, you are all 
very well aware of that. So we went back to reporting it by 
220-1, which really still does not help you get that fleet 
percentage.
    I say all of this because, you know, we put a lot of money 
up against this. Chief of Staff of the Army, and Secretary of 
the Army, Vice Chief of Staff of the Army came over in 2006, 
had the $56 billion discussion about the holes in the yard. 
That was the first time that the requirements for the Army 
National Guard and, I think, the Army Reserve had ever gotten 
out fully in public. And we had been hammered by folks, and, 
you know, the guy that I work closely with, guy named Steve 
Blum, are not exactly bashful about this. When are we going to 
get the whole requirement out there? They did that. I think we 
owe them a lot over a long period of time to be able to bring 
that up here on the Hill and look at it and say this is exactly 
what we have got to have.
    Now, as we measure where we are at today in equipment, we 
have made great progress. The Army has put out requirements, 
total requirements, into the base, and there are some in the 
supp. I know the lecture, you know, on the supplemental piece. 
I agree, I hate to see any of it in the supplemental except 
that piece that was on left-behind equipment early on in the 
conflict.
    If we stay on track with this Army plan, by 2013, of that 
$17 billion that is out there, $10 billion of that is the 
Guard, and it is mostly trucks. When I boil this thing down 
really to it and look at what we are going to be short when we 
get to 2010, we will be chasing trucks.
    My concern is that through the truck line right now and the 
contracts, and I think I heard the Chief of Staff of the Army 
testify on this on Tuesday, some concern about the ability to 
execute the contracts that are out there this year for the 
Family of Manned Tactical Vehicles. That is our primary 
shortfall, when everything is said and done.
    Our issue inside the Army family is going to be able to 
come over here and tell you by appropriation in what year that 
money was spent on, and did it go into this particular State 
for that particular piece of equipment.
    The buy wave is significant right now. As you know, it 
really takes two years to see it start showing up, the big 
money that started to flow in 2006, and there is approximately 
$5 billion worth of resources every year through 2013 on 
average to make that happen, with the big years being 2008 and 
2009. We desperately need that, and we have got to maintain the 
ramp that we are on this equipment, or we are going to find 
ourselves right back in the same shape to start with. 
Modularity increased the requirements in a dramatic way. The 
modularity was also the right thing to do because it created 
the plug-and-play formation across all of our forces.
    So the requirements at the end of the day have gone up. We 
are doing what called an EOH, an equipment on hand look at how 
much equipment we have got. It is a major effort to account for 
all of that. We account for it very well, as you know, because 
we have the United States property and physical officers. We 
had that property accountability capability that is really new 
to the Guard, but this is about a 3.8 million-item issue spread 
across all 50 states, commonwealth, two territories and D.C.
    Mr. Abercrombie. Before we move to General Stultz, then, 
your testimony is that in terms of being able to account for 
what you had, what you lost, what you need and what you can 
repair and use for both deployment and training, you say you 
are on top of that?
    General Vaughn. We are on top of that.
    Mr. Abercrombie. Okay.
    General Vaughn. The piece that we are not on top of, and 
that General Blum and I, either one, are going to have trouble 
testifying to, is what year and what appropriation did this 
come out of, tying it back to exactly where it came from. We 
see, as that equipment hits our motor pools, and we rack it up 
every 30 days, we can show you the difference in numbers, and 
that is how we are doing it.
    Mr. Abercrombie. You are way ahead of a whole hell of a lot 
of the rest of the DOD if you can do that.
    General Vaughn. Sir, we have 54 United States property 
physical officers, some of the highest-trained soldiers and 
airmen that we have in there, the people in the States, that 
account for this equipment. It is not us.
    Our pipelines are good, and we take that information 
directly off of that. When that has been audited before--we 
have been audited several times about our capability to do 
this, and the property book systems that we run are good.
    Mr. Abercrombie. That is maybe one of the most important--
not only the most important testimony, but if you can give us 
that foundation, it might be the most important thing coming up 
for us, because I intend to recommend to this subcommittee and 
to the committee as a whole those things that we know we can 
spend money on that we are going to get value received.
    For the rest of the DOD, a lot of that is in the ether. I 
am sick of--speaking as one Member--sick of just pumping money 
in there and hoping someday somehow it actually comes back as 
having gone to where it should have.
    General Vaughn. We are making progress. I think the 
significant piece is the National Defense Authorization Act 
(NDAA) told basically that General Blum's report on whether or 
not that money was actually delivered to the right piece of 
equipment. So we will have to put that kind of capability into 
the rest of the system. Now, that is very, very important.
    I am not saying that the Guard should ever have different 
appropriations to do all of that. I mean, we were the Army, we 
are inside of the Army system. We just need to make sure that 
the trust is there between all components. If you don't have 
the transparency on where the money came from and where it was 
supposed to go to, we will never get over this trust.
    I will tell you one thing. I will trust you that the Army 
has built a program, and I trust that Congress has put the 
money in the right places, and I know that you want to see it 
shown. And the tags are telling me right now we have got a lot 
of equipment showing up, and we are making progress on the 
percentage is what I leave with you with.
    That is all I have, sir.
    Mr. Abercrombie. Thank you.
    [The prepared statement of General Vaughn can be found in 
the Appendix on page 39.]
    Mr. Abercrombie. General Stultz.

STATEMENT OF LT. GEN. JACK C. STULTZ, CHIEF, U.S. ARMY RESERVE, 
                           U.S. ARMY

    General Stultz. Thank you.
    Mr. Chairman, Congressman Saxton and other Members, thanks 
for the opportunity to come and testify about the equipment 
needs of the Army Reserve. We have got a lot of great heroes 
that are stepping up, willing to join our ranks, willing to 
serve their Nation, and they deserve to have the best equipment 
to train on back here and best equipment going forward.
    I prepared somewhat of a briefing, but I am not going to go 
through and brief; I am just going to refer to a few slides as 
we go through.
    But you talked about operationalizing the Reserve 
components, and there are two pieces to that operationalizing. 
One is we have got to get the structure right with the right 
capabilities to be an operational force. We were structured as 
a legacy strategic force. We had a lot of admin overhead, those 
kinds of things. So we are changing the structure of the Army 
Reserve into an operational force, more capability in areas 
like engineers, medical, transportation, civil affairs, 
military police, those types of capabilities that this Nation 
needs both here at home and abroad.
    With that, that generates additional equipment 
requirements. As we generate more capability, there are more 
requirements.
    If you refer to slide five in this packet, it is the Army 
force generation model. I know most of you have seen that 
before. But the reason I wanted to refer to that, part of the 
operationalizing of the force has been to array our force 
across a five-year model, meaning that you are deployed for one 
year; you come back and you have four years of dwell time back 
here before you are expected to be available to deploy again. 
That would lead one to say, okay, then we don't need to have 
your equipment until you are ready to go. The point being with 
this slide is in each of those years, starting with the reset 
year one all the way through the available year, their 
equipment needs, if you are back in the reset phase, while we 
are resetting the unit, and in a lot of cases we also have 
Title 10 homeland missions, and somewhere we are augmenting the 
National Guard in their hurricane relief missions and other 
missions like that, we still have equipment needs that we 
deploy soldiers to.
    But more importantly, as we progress in our readiness, and 
we get into ready year one, that is when we are training those 
forces getting ready to deploy in a year or two into theater, 
they have got to have the right equipment to train on back 
here.
    Right now we have engineer units that we are sending into 
combat; that is, route clearance units. We are fielding the 
latest and greatest equipment for them in theater with the 
Huskies and the Buffalos and those types of equipment, but we 
have got to have those same pieces of equipment back here for 
them to train on before they hit theater. It is not good enough 
to say the first time you are going to get it is when you get 
into theater.
    Same dilemma we have with the Mine Resistant Ambush 
Protected Vehicles (MRAPs). We are pushing as much MRAPs as we 
can into the theater because we want to protect every one of 
our soldiers, but we still got to have some equipment back here 
to train them on before we get back into theater with that 
equipment.
    So the point of this slide is just to say across this 
entire model it is not a tiered readiness model, as some might 
say. You don't have to be as ready in year one, two, three, 
four as you do in year four or five. You have to have your 
equipment because you got homeland missions and you got 
training missions.
    Now, the next piece, slide six, was just to illustrate what 
General Vaughn has already said. If you look at the equipment 
we have, it is outdated equipment.
    You can see, as he would have related to, the 2-1/2-ton 
trucks, the economic usage life of a 2-1/2 ton truck is 20 
years. The average age of the 2-1/2-ton trucks in my formation 
are 37 years old, and they are not deployable because we don't 
operate that kind of equipment in theater. Yet in a lot of 
cases we are trying to count that as an authorized substitute.
    The point being, in 2002, the Army Reserve had 78 percent 
of its authorized equipment, including authorized substitutes. 
We had 22 percent of the right equipment, modern equipment. As 
of this year, we only have 66 percent of our authorized 
equipment because we have left equipment in theater, and the 
equipment we took to theater was our good equipment. So the 
modern equipment was left in theater, what we have got back 
here, so now I am down to 20 percent of the right equipment in 
my formations.
    Now, does that mean we are broken and falling apart? No, 
because back here we can still use some of that authorizing 
equipment for homeland support, but we have got to get our 
equipment modernized. We have got to get the equipment that is 
short into our formations for our soldiers. As General Vaughn 
said, you know, there has been much progress made.
    In the current 813 pond, we have got a substantial amount 
of dollars that are being programmed for equipment shortages in 
the Army Reserve to the tune of almost $8 billion over that 
period of time. We have got additional----
    Mr. Abercrombie. Are you on number seven now?
    General Stultz. Sir, yes, sir. If you look at slide seven, 
as we currently sit here--I will put it in the best frames, it 
doesn't show it exactly on the slide--my total cost of 
equipment in the Army Reserve right now that I am authorized is 
$22 billion. If I filled up all of my formations with the right 
equipment right now, it costs $22 billion. I have got $4 
billion of that on hand, the modern equipment, 20 percent.
    Now, over the pond, the 813, including supplementals and 
including some of the 1225-1, which is the repayment for the 
equipment we left in theater, we are reprogrammed to get $17.5 
billion. So we are programmed by year 2013 to get to that 70 
percent of what we are authorized. It still leaves us short 
about $6 billion-plus out there, but we are programmed to get 
there.
    The problem I have got is I am trying to recruit and retain 
a force and train a force right now, not wait until 2013 to do 
it. So we need--the emphasis--we appreciate the emphasis 
Congress has given us, but we have got to get that equipment 
flowing. We have got to get the dollars flowing so that we get 
the production lines going so that we get the equipment being 
delivered, because, as General Vaughn said, it takes a couple 
of years for that cycle before the equipment starts to show up.
    I am concerned, just as you said in your opening statement, 
we are in competition for our equipment with other priorities 
that are out there. Every time some other priority comes up, we 
seem to lose.
    The best example I can give you is I will tell you just a 
couple of facts and figures that I brought with me. I am not 
sure if I am supposed to--none of this is classified. But from 
the 1998 to 2007 timeframe, we were funded to get about $800 
million for Family of Medium Tactical Vehicles (FMTVs). We got 
128 in terms of what equipment we actually received. So we 
should have gotten about 3,500 to 4,000 trucks; we got about 
600, because dollars went other places.
    We were programmed for our 915 fleet, our line haul fleet, 
to get about $51 million for vehicles. We ended up not getting 
any vehicles during that time.
    For our armored support vehicles, ASVs, we were programmed 
to get about $111 million, and we got about zero.
    So I understand there is competition, there are needs in 
theatre, there is replacement of vehicles that are being battle 
damaged and lost in battle. I am not saying that we shouldn't 
replace those and other things, I am just saying we are 
competing with other priorities for the equipment.
    We have got to get the emphasis both for the Guard and the 
Reserve and say we have got to get put priority where we need 
it. If we are going to be the operational force, and if you are 
going to expect me to be able to train and sustain that force, 
I have got to have the equipment for them.
    [The prepared statement of General Stultz can be found in 
the Appendix on page 42.]
    Mr. Abercrombie. Are you both agreed, then, before we go to 
Mr. Reyes, that this operational force concept is no longer a 
concept, it is an operating principle that you have to abide 
by?
    General Stultz. Yes, sir.
    Mr. Abercrombie. So the old definitions that might have 
applied in the mid-1990's with regard to the Reserve and the 
Guard in terms of what is expected of the mission has 
significantly changed and probably, at least for the 
foreseeable future, changed permanently?
    General Stultz. Yes, sir. The example I would use, as we 
downsized the force in the 1990's, and we drew the Active Army 
down, some would call it the peace dividend. We made a 
conscious decision to shift a lot of the combat support, 
service support, into the Reserve components, because we said 
we don't need that on an everyday basis, and we really need our 
combat formations training on a daily basis because it is 
harder to train up to a state of readiness. What we said is if 
we engaged in a conflict, we are going to be dependent on the 
Reservers to provide that combat service support for us.
    Mr. Abercrombie. So the equipment component then becomes 
even more crucial?
    General Stultz. Yes, sir.
    Mr. Abercrombie. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    General, thanks for being here. We appreciate the 
information and certainly appreciate your service.
    General Stultz, on this slide number 7 that you talked 
about in terms of getting up to 70 percent by 2013, I think you 
said----
    General Stultz. Yes, sir.
    Mr. Reyes. Did I understand you correctly that you said you 
would get there providing the funding remained constant, 
including supplementals?
    General Stultz. If we get the money that we are currently 
programmed to get into base, the 813 base, which is about $7 
billion, plus the supplementals that we had programmed for the 
2007 and the 2008 supp, plus some of the national guard and 
reserve Equipment Account (NGREA) money, plus some of the 1225-
1, which is the repayment of the equipment we have left in 
theater, all of that comes to fruition, yes, sir, it will take 
us to about 70 percent.
    Mr. Reyes. But you are not counting on supplementals 
providing funding through 2013.
    General Stultz. No, sir. The funding I was saying is the 
2007-2008 supplementals which have already been submitted, plus 
what we have got in base.
    Mr. Reyes. I am going to assume that there is a way that 
the money in the 2007 and 2008 supplementals is being tracked 
so that it goes to you?
    General Stultz. That is the difficult part, sir. That is 
exactly what General Vaughn and I were talking. We know the 
money goes into the supplementals. We don't really have a way 
of tracking when that money is being spent for us. What we do 
is we track when we get the piece of equipment that we were 
told we need 3,000 trucks, and when we start seeing the trucks 
show up because the money was in the supplemental for that, 
then we know that money is being applied against us.
    When it is being spent by the Army, they put up a 
production line and say, we are going to produce 1,000 trucks. 
I have to wait and see how many get distributed to me when they 
come off that line. That is when we start competing, because I 
am supposed to get 500, and I only get 200 because somebody 
else said it was more important to send 300 somewhere else.
    Mr. Reyes. So at what point will you be able to let us know 
that the money that was appropriated to you in the 2007 and 
2008 supplemental never got to you?
    General Stultz. The best way I can do it--I will let 
General Vaughn speak for the guard--is what I was referring to 
later when I can go back and look at how much was programmed 
and what I actually ended up getting at the end of that period 
of time.
    Mr. Reyes. Mr. Chairman, are we asking the Army to provide 
us some kind of a systemic report on the things they spend the 
money for----
    Mr. Abercrombie. That is one of the things that is going to 
grow out of this hearing, whether we need to do that, or 
whether we need to make more specific in the language that we 
wrote in conjunction with appropriations as to where the money 
is going to go and in a sense to require it.
    Now, that said, in order to answer your question properly, 
obviously the Army or any other branch of the service has to 
deal with immediate contingencies. If there is a strike 
required of some kind that requires equipment that has not been 
programmed into the budget considerations or the defense bill 
itself, all you can do is provide for contingencies. That is to 
say the flexibility of making decisions is where equipment 
should go at any given point.
    But saving that particular instance in which a--I won't 
even say a diversion, but an assignment of equipment is made in 
order to meet the imperatives of the moment, that aside, we 
should be able to, perhaps need to be able to, deal with more 
specificity in the defense bill and in the appropriation bill 
accompanying it as to where the funds are going to go and 
insist that that be accounted for. Otherwise, as it stands 
right now, my information is that we make the authorization, do 
the appropriation; in this instance the Army, has really 
extraordinarily broad authority to put the money pretty much 
where they please.
    General Stultz. Yes, sir.
    Mr. Abercrombie. Is that a correct statement?
    General Stultz. Yes, sir. The money does not get 
appropriated to us. It gets appropriated to the Army. Then the 
Army, as you say, can--now, with the NGREA funds----
    Mr. Abercrombie. I am not saying that they do--provide the 
equipment which was ordered, but what happens in the 
distribution of that equipment is then----
    Mr. Reyes. It is prioritized.
    Mr. Abercrombie. Yes, it is highly discretionary, I think 
is the best way to put it.
    General Stultz. That is one reason we like the use of the 
NGREA funds, because the NGREA funds are appropriated for the 
National Guard or the Reserves.
    Mr. Reyes. While I think all of us on the committee 
understand that there is a need for prioritization, for 
instance, into theater, because we want our troops in harm's 
way to be as well equipped as possible, the concern that I 
have--and I don't know if you had a chance to read the National 
Intelligence Estimate (NIE) yet.
    Mr. Abercrombie. I did.
    Mr. Reyes. So we just got a new NIE on Iraq that while we 
can't reference the information that is in there, the concern 
that I have is in the foreseeable future, we don't anticipate 
that there is going to be any opportunity for the Reserves or 
the National Guard to be less busy than they have been to--in 
fact, if the last 5 years has been an indication, you are 
probably going to pick up 40 percent of the load for the 
foreseeable future.
    As that NIE indicated, there is no--at least they don't see 
at this point any possibility that there would be any drawdown 
because of the fragility of the stability in Iraq and 
Afghanistan.
    So it is a real concern, because while we understand the 
priority, we certainly have to, through our oversight 
capability, provide the flexibility to you gentlemen so that, 
as you said, you need that kind of equipment to train on so 
that soldiers don't go into theater and train on equipment that 
they have never seen before.
    General Stultz. Yes, sir.
    Mr. Reyes. So it is a real challenge.
    Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Mr. Abercrombie. I will go to Mr. Wilson now.
    Mr. Wilson. Thank you, Mr. Chairman.
    I want to point out that I am wearing a jacket today in 
honor of the heritage of our Chairman. He has a Scottish 
background, and so it is the shared heritage that we have. I 
knew I would be dressing appropriately for the Chairman.
    Mr. Abercrombie. That is right. The Scots have to take the 
blame.
    Mr. Wilson. No, this is good.
    Generals, thank you very much for being here today. I 
particularly appreciate your service. I have been in both of 
your commands. I was 3 years in the Army Reserves and 28 years 
in the Army National Guard. I am really grateful that I have 
four sons serving in the military. The reason they are serving 
in the military is that everywhere I went, I would run into 
persons that I served with in the guard and reserves, and there 
was immediately a bond that they noticed of persons of all 
walks of life. And they noticed that the people that I thought 
were the most capable, competent, patriotic were indeed members 
of the guard and reserve. That is why I am confident all four 
of them joined the military. Three, in fact, are in the Army 
National Guard. One son is a bit off track. He is a doctor in 
the Navy, but we still will accept him.
    I also want to let you know that as I have had the 
opportunity to visit with our troops in Iraq nine times, six 
times with our troops in Afghanistan, every time I go, I am so 
impressed by the persons serving in the guard and reserves, 
particularly my former unit, the 218th Brigade, which is 
concluding its year of service in Afghanistan, General Bob 
Livingston. What a great job they have performed.
    Indeed, as we discussed, the equipment in the summer of 
2000--I was on a rotation at the national training center at 
Fort Irwin, California, and the equipment that we had then was 
quite limited. I point out that the equipment that we had then 
was actually in a museum today. I want to thank you for your 
leadership in fighting for the best equipment to protect our 
troops.
    I am concerned, though, as I look at the report from 
General Blum as to a readiness level of 61 percent and, indeed, 
we want your input on how we can assist the guard and reserve 
in having proper equipment, and, indeed, a specific question I 
have relates to unfunded requirements.
    With the situation of unfunded requirements, General Casey 
provided a letter of $3.9 billion. What is the status on the 
unfunded requirements, and is there any way that they could be 
included in the budget so that in the current issues that we 
have relative to earmarks, that the funding can proceed?
    General Vaughn. Congressman, you are asking us what we 
could do. In our instance, I think it was right at $4 billion. 
We appreciated him making the case for that because it was 
aimed at the critical dual-use 342.
    I don't know--you know, I think in spirit that he was asked 
for--again, the bad word being supplemental, I think that is 
what--I think that is essentially what he was asked for. If 
there were extra monies out there, you know, where would it be? 
I don't mean extra. If we don't receive that at someplace--and 
the helpful piece about that, it would pay down the $10 billion 
hole-in-the-yard piece out of that 17- that was remaining. But 
as far as where it could be, you know, I take it in the very 
spirit that he put it back in, and as you all alluded to 
earlier. Maybe if you are talking about the total gross 
domestic product (GDP) and whatever that percentage is, maybe 
it is part of that discussion, but it is for the Director the 
Army Guard to turn around and say, we need to put another $4 
billion in the base, and that would come at the expense of some 
of the priorities that Jack has talked about.
    I think probably it wouldn't be the right thing for me to 
do. We need the $4 billion. There is no question about it.
    Again, we certainly appreciate and applaud the fact that he 
did that. In fact, he did it, taking our list, without even 
talking to General Blum and I. We turned around and said, would 
you look at this? The Chief of Staff in the Army has turned 
around and got the message. So I hope that is enough of an 
answer that I can give you now.
    I don't know how we--I don't know where we put it without 
identifying a billpayer to come off of someplace. But we simply 
appreciate everything that this committee does. Again, the 
amount of resources that is up against this--will tell you the 
primary issue is the one you just attacked, and how do we see 
this from back over here on one side, you know, from the 
checkbook all the way through to where we got it?
    If there is a higher priority by the Army to move that some 
other place, then we simply need to have an IOU on this. But 
unfunded requests (UFRs)--and we are going to have UFRs, and 
there is going to be differences in our force structure between 
now and 2013. We would hope--hope not being a good option, as 
General Sullivan used to say--we would hope that that would go 
down a bit. I really don't see how, because with everything 
that we are looking at now and the use of our guard--what we 
committed to the Army was 60,000 Army Guard soldiers a year 
mobilized. You know, we did this around when we had a big 
bubble in the middle with 100,000 a year mobilized. You know, 
we did this in the middle when we had the bubble. We had nearly 
100,000 nearly mobilized at one time in 2005 where we 
modernized the force, and we had so much combat force 
downrange, we are trying to flat-line that out for the future 
where it is 60,000 all the way across.
    But we are going to be very receptive to anyone trying to 
help us with what we have got out there in the future. But I 
can't tell you where we would take it at, Congressman.
    Mr. Wilson. Thank you, and I look forward to working with 
the committee.
    Mr. Abercrombie. Thank you, Mr. Wilson.
    Mr. Spratt followed by Mr. Saxton.
    Mr. Spratt. I didn't have the benefit of hearing your 
testimony, but I have just been reading it and trying to do my 
homework as you were talking.
    I have two basic questions, and it is a question I put to 
the Secretary of Defense and Joint Chiefs when they were here a 
couple of years ago. This year's budget appears to be the last 
one programmed in the Future Year Defense Plan (FYDP) in which 
a real increase in spending dollars is provided in the near 
future. The budget as projected in the President's submission 
declines in real dollars for the Army and all the services and 
the DOD generally after next year, after 2009. We know there 
are inaccuracies in the outyear budget if DOD is programming 
for decreasing real-dollar spending over the next five years. 
It appears to me--just from a quick perusal, it looks to me 
like you are asking for large increases in the Army, which I 
can understand, and the Army Guard and the Army Reserve 
procurement budget over the next 10 years. I understand the 
Army Guard has stated a need for $24 billion, which would fund 
you to the 80 percent level, and the Army Reserves indicated a 
need for $8 billion for tactical vehicles alone.
    So this is a question. Looking at these numbers, and 
looking at your enormous requirements in the near term, does 
the FYDP as it is presently stated support your equipment 
purchases to maintain your goals, equipping the forces by 2015 
and 2019? Particularly, do either of your figures starting in 
2010 reflect your equipment purchase needs, or are you looking 
for more money? Will you need more money over and above, 
substantially over and above, than the FYDP now states? How 
much longer do you think you can go without receiving the 
equipment--equipment funding in a supplemental appropriations 
bill?
    General Stultz. Yes, sir. As alluded to earlier before you 
came in, we have got--and one of the charts I provided shows 
that currently programmed in the 813 budget, FYDP budget, plus 
the supplementals that were there for 2007 and have been asked 
for 2008, plus some other funds that the Army owes us for 
equipment that was left in theater, that will get us to 70 
percent of our equipment needs by 2013. That still leaves short 
about $6.8 billion worth of equipment that the Army Reserve 
needs above and beyond that 2013 figure to get us to 100 
percent.
    Mr. Spratt. By way of comparison, do you know what the 
number would have been, shortfall would have been say in 2002, 
2003, some 5 years ago, on the threshold of the Iraqi war?
    General Stultz. Yes, sir. It is a little bit hard to say. 
As I said earlier, in 2002, I had 78 percent of my equipment 
but only 22 percent of what was authorized to modern equipment. 
So I was already--we were a legacy strategic reserve back then. 
We still had the M-35s. We still had the old, in some cases M-
16 A1 rifles, we had some of the 800 series 5-ton trucks. So, 
in 2002, we were at 78 percent, but really only 22 percent 
modernized. Today, I am at 66 percent. I have got $1.2 billion 
worth of equipment that is left in theater that has been added 
to that bill because--and I am at 20 percent modernized, 
because a lot of the equipment I left in theater was my modern 
equipment. I took my M-915 A4s, the semi trucks, and took them 
to theater. My M-915 A 1s, the old ones, I left back here 
because I wanted the troops going to war to take the best. So 
now I have left that in theater, so now I have got 50 percent 
of my M-915 fleet, but it is the modern fleet, that is in Iraq, 
and it is the old fleet that is back here. So it is kind of 
hard to quantify exactly because we have had some changes in 
structure, we have had some changes in terms of our 
capabilities. But I would submit to you that the figures are 
probably somewhere close in terms of what we have accumulated 
between 2002 and now. But what we have lost in terms of either 
aging equipment or equipment that has been left in theater, if 
we are at a break-even point, we are lucky.
    Mr. Spratt. Could you give us an idea of how much over and 
above the FYDP it will take to get you up to your preferred 
equipment levels?
    General Stultz. It is about $6.8 billion, sir.
    Mr. Spratt. $6.8 billion?
    General Stultz. Yes, sir.
    Mr. Spratt. That is in 2010? Is that the whole period of 
time?
    General Stultz. That would be from 2013 to 2019 is when 
that is projected.
    Mr. Spratt. Okay. Thank you, sir.
    Mr. Abercrombie. Mr. Saxton.
    Mr. Saxton. Thank you very much.
    In General Vaughn's concluding sentence of his testimony, 
he said we are making progress on the percentage, meaning 
percentage of equipment. And I have here a chart which I am 
going to ask our great helper John to provide to both of you so 
that you can see what I am talking about. I have a chart here 
which says, ``America's Army, the Strength of the Nation, Army 
National Guard Funding and Systems Growth.'' And I just wanted 
to point out why I think General Vaughn made that statement and 
why I think it is correct. On this chart, which we all have in 
our packet by the way, there is a category of equipment called 
``Family Medium Tactical Vehicles,'' which General Stultz 
referred to as FMTVs a little while ago. Before 9/11, we had a 
stated requirement on this chart of about 4,722 units in that 
category. And in fiscal year 2001, we had just 6 percent of 
them on hand. In fiscal year 2008, we have a stated requirement 
not of 4,722 but of 22,266, and we have, either on hand or 
pending deliveries, 42 percent of that. So we seem to have 
moved from a 6 percent rate of having what we need to 42 
percent. That is progress.
    Another line item there, line haul trucks, a stated 
requirement in 2001 of 1,752; we were at 71 percent of the 
requirement. In fiscal year 2008, a requirement of 2,372, and 
we are at 108 percent of the requirement on this chart. So I 
look down this list, and I thought this is pretty encouraging 
that we are actually moving in the right direction on most of 
these items. And even where the percentages have fallen, the 
number of items on hand has increased because the requirement 
has increased. So am I being overly optimistic about the path 
we are on to meet the requirement that we all agree we need to 
have, or is there something that I am missing?
    General Vaughn. Congressman, I think you can be optimistic. 
I would repeat something one time that Congressman McHugh said 
in one of our deals with him. In the future he would like to 
come back as an out year because everything is rosy in the out 
years. A lot of what we have got hooked up here, you know, is 
in the out years, and it is going to take a lot of heavy 
hauling to get there. But you are exactly right. We are making 
progress. And because there are additional requirements on 
here, you see that the requirements out in 2013 and beyond that 
grow substantially. It is a much more capable force. So when we 
look at the heavy line haul capability, if we take some of the 
trucks that make up the difference that Jack was talking about 
that are actually legacy trucks, some of those are pretty good. 
And we are committed to stay with some of those trucks for a 
while. We are not committed to stay with M-35s. We would like 
to roll the 800s out. And we will make up some difference here 
in heavy haul with our heavy expanded mobility tactical trucks 
(HEMTTs) and our heavy tactical vehicles (HTVs) that we are 
getting. But overall this is an Army chart. I imagine it came 
out of the G8 of the Army. And we agree with what this Army 
chart is showing you. Through 2008--and you would be 
disappointed, having put the effort in, if it was any other way 
I would think. But that is what is going on right now. We are 
on track, our percentages aren't near what we want them to be, 
and to get this force like it has got to be out there in the 
future for the United States it has to continue that track.
    Mr. Saxton. Let me ask you both, and let me start with 
General Stultz, from an equipment perspective relative to the 
supplemental for 2008, how important is that to you in terms of 
continuing the progress that we see here in this chart? And can 
you give specific examples of equipment that you need that is 
in the 2008 supplemental?
    General Stultz. Yes, sir. It is critical. And to refer to 
the first question you asked, I don't want to paint a totally 
dismal picture. We are getting record resourcing in terms of 
dollars that are being applied against us. And it is in that 
column you talked about on this one chart of pending delivery 
or scheduled to be delivered. It is that cycle that takes to 
replace that to get the industrial base going to produce it. An 
example would be, in normal years, if I got $500 million in 
equipment dollars, I was feeling really good. For 2007 to 2009, 
it is like $2.5 billion; $1.8 billion of that is in the 
supplemental. I had $1.8 billion in the 2008 supplemental and 
about $1.3 billion, I think it was or somewhere around that, in 
the 2007 supplemental for equipment. So record levels of 
resourcing for us. But it is going it take a few years before 
that equipment is going to start showing up in our formations. 
And these percentages will start growing immediately. To the 
immediate point, when you talk to FMTVs, I have got 15 percent 
of my authorized FMTVs on hand right now. The rest of them are 
the authorized substitutes. So if we don't get that 
supplemental, the dollars going in there, part of those FMTVs 
will never increase because that is where some of those dollars 
are going. A lot of those dollars are going into things like 
communications equipment that my soldiers back here need to be 
able to train on back here and be equipped back here before 
they go into theater so they can communicate on the battlefield 
properly, as well as communicate back here if they are 
responding to some homeland--attack on the homeland or some 
kind of natural disaster. So if we don't get the money that is 
in the supplemental, we will suffer in terms of FMTVs, we will 
suffer in terms of some of the night vision equipment we need, 
we will suffer in terms of communications equipment. Because 
$1.8 billion of that supplemental is supposed to be for our 
equipment.
    General Vaughn. Congressman, much the same, we have a 
detailed list of what is in that fiscal year 2008 supplemental 
that we depend on. There are a couple things, though. The 
Warrior Information Network-Tactical, WIN-T is what they call 
it, as opposed to Joint Network Node (JNN), we are really, 
really looking and counting on $1.2 billion for that. Because 
that is a capability for our tactical formations, larger 
formations that we can't even deploy them unless we got it. And 
the Army, mother Army has run through all the systems that they 
have. In fact, we moved money over last year to make sure they 
could acquire this. And we are looking on the payback side of 
that. And that is just part of what is in the supplemental. We 
have a complete list on that, though. Thank you.
    Mr. Abercrombie. Mr. Saxton, would you yield to Mr. Spratt 
for one moment as a follow-up on that, and then we will go back 
to you?
    Mr. Saxton. Thank you.
    Mr. Spratt. I am just curious about the equipment that is 
being left in the field, or at least is in the field today. Do 
you have an inventory of it to show where it is, number one, 
whose control or possession it is? And number two, how much it 
will cost to--or whether or not they have a plan, do you have a 
plan for repatriating it, bringing it back home? And if so, is 
there a budget provision for the transportation costs?
    General Stultz. The equipment that is considered TPE, 
Theater-Provided Equipment, or used to be SBE, Stay-Behind 
Equipment, because I happened to be over there during the time 
that we made the decision to leave the equipment behind, and I 
had to make some of the decisions on the trucks; whose trucks 
do we leave in theater? And we tried to be equitable across the 
force and said, we will leave some Guard trucks, some Reserve 
trucks and some active trucks so everybody shares in this. And 
one, it makes it easier when Guard or Reserve units come in, 
they can fall in on like component equipment. We made that 
decision back in 2004. And at that time, the equipment remained 
on our property books, and we had to track it, and it was in 
theater. Then the decision was made that that equipment is 
not--we can't continue to keep it on our property books because 
we don't know when it is going to come home. At that point, it 
was transferred to the theater. It becomes theater property 
now, taken off of our books. And that is the--I use the term 
1225-1, that is the statute that says the Army, should they 
take equipment away from the Reserve or Guard, has a certain 
amount of time in which they have to repay or replenish that 
equipment. So currently, the Stay-Behind Equipment that is in 
theater is not on our property books. That is part of that 
shortage when I talked about my on-hand equipment went down is 
because that was taken off my books, remained in theater, and 
now it is the Army's property. Some of that equipment, you 
know, I am not at the level to know what they are going to do 
with that equipment, but I will tell you, having been over 
there with it, some of the miles that are on those trucks and 
everything, it is going to require extensive refurbishment to 
bring them back up to a level where they can be used back here 
in the States if we make that decision. So technically it is 
not on my books anymore, so I don't have the responsibility to 
try to look at the cost of bringing it back or the cost of 
refurbishing it. That becomes an Army cost now. What I did have 
to do is make sure I had good accountability so that I could 
hand the Army the bill and say, $1.2 billion of that equipment 
over there is mine that you now have to pay me back for.
    Mr. Spratt. Is a lot of the equipment likely to be left in 
theater for the host country?
    General Stultz. Sir, I don't know. I am not at that level 
where they are making those decisions. I think some of it could 
be, just me personally, could be put----
    Mr. Spratt. We hear the plusses and minuses of the Iraqi 
forces. One of the shortcomings listed, cited frequently, is 
logistics.
    General Stultz. Yes, sir.
    Mr. Spratt. So it would strike me that if you have got lots 
of vehicles there in country, they may be asserting some sort 
of need for those vehicles before they are shipped back home.
    General Stultz. Yes, sir. Again, sir, I am not in that 
decision loop.
    Mr. Spratt. Not in your pay grade. Thank you, sir.
    General Vaughn. Congressman, we had $3.2 billion left in 
theater, $3.2 billion of equipment left there. And as you might 
imagine, we knew what it was. There was $1.7 billion of that in 
the fiscal year 2007 bridge supp. There was $647 million in 
this requested fiscal year 2008 GWOT request. And the remainder 
is supposed to be from future supps or a reset, a cost of war. 
As you said, we probably didn't want it back anyway at this 
particular point in time, but the hole is there. It is part of 
a hole that is created because, even with the 2007 stuff, if it 
takes 2 years in the procurement process to see it, we won't 
see some of that until 2009. And so I hope that answers in the 
same fashion. The 1225.6 piece that Jack talks about is the 
Department of Defense instruction that says, if you are going 
to take stuff from Reserve component, then you need to have a 
payback plan. And Jack and I both went to battle with the G8, 
and they did a wonderful job on this. We are not complaining, 
except we left it, and we don't have it back in our units to 
train on. And that is just the price of doing business. We do 
think that this is not taken care of. We think that the bogeys 
out there to pay it back, though.
    Mr. Abercrombie. So the answer at this stage then, before 
we go back to Mr. Saxton, is that you do know what went out 
there. You know how much it was worth. You got a payback 
figure. You understand what you need. You even have a timetable 
for it if you can get it, but the question becomes then, is it 
going to happen?
    General Vaughn. Chairman, that is exactly right.
    Mr. Abercrombie. Fair summary?
    General Vaughn. That is fair.
    Mr. Abercrombie. Okay.
    General Vaughn. And it is not a whine, because----
    Mr. Abercrombie. I didn't say that.
    General Vaughn [continuing]. There may be higher 
priorities. We just want a payback plan if it is moved out to 
the right so we can see it.
    Mr. Abercrombie. I am just making an observation, not a 
characterization. Thank you.
    Mr. Saxton, thank you for your patience.
    Mr. Saxton. It is a pleasure. Mr. Chairman, just let me 
drill down, if I may, on this concept of where we were, where 
we are, and where we need be to. The significance of going from 
a strategic force to an operational force has been discussed 
here several times today. And that increased requirements. And 
as a result of those increased requirements, dollars have been 
made available, and there is stuff in the pipeline that is 
going to help solve that problem. We also moved from a 
divisional structure to modular units, the new brigade 
structure, which I believe also increased your authorizations 
for equipment, trucks and radios and what have you. Looking 
back from an equipment perspective now, how would you rate your 
ability to do your missions today as compared to prior to 9/11, 
which is when we--is the date that kind of triggered all these 
changes?
    General Vaughn. Congressman, in the United States of 
America, with the--in lieu of equipment that is out there that 
is not deployable and subs, if that particular equipment is 
good enough for Americans, and we like to say it is never good 
enough--you know, I mean, we have been told this several times, 
that you can get by with M-35s. Oh, by the way, if you break 
the M-35s on the way down with an engineer unit from Missouri 
to Louisiana and you don't get there with that capability, and 
you have heard some of those stories, I mean, what does that 
cost us in total of--in terms of suffering? Our capability is 
pretty good in the United States because of what we have done 
with our personnel and our force structure pieces of this. As 
we discussed earlier, how good we are is framed by equipment on 
one side, you know, a tremendous book end, and you can't do it 
unless you got it. Full-time support, you know, on the other 
side. It all stands on the base of people. And we are stronger 
right now than we have ever been in people. I mean, because 
they have stepped forward to do what the Nation is asking them 
to do. And we have got a lot of veterans and a lot of talent 
out there right now. Then we need the training dollars, you 
know, in the middle. For the old Continental United States 
(CONUS) fight overseas, as long as we are incrementally getting 
into this thing, we are getting better. But if we have to put a 
whole bunch of folks somewhere all at one time, without going 
into the readiness implications of that, as I discussed earlier 
when we were talking about a strategic Reserve, that is kind of 
what you got left is you have got a strategic edge with a lot 
of old equipment back here in the United States, you know, 
backing up the active force. That is what you got. Our 
capability here in the United States to go to the fight with 
old stuff, about like it was, you know, to start with except 
our manpower is better, sir.
    General Stultz. Yes, sir. I would just add, echo on what 
General Vaughn said, one, from the Army Reserves perspective, I 
think we have the most capable force we have ever had because I 
have the most combat veterans we have ever had in our force, 
great young Americans who are willing to go forward whenever 
called upon. And we send them into battle with the best 
equipped, best trained. We don't have to train quite as hard 
because they have already been there, done that, so they know 
how to do their job. The challenge we have got is, one, getting 
them trained on the latest equipment that we are using in 
theater because the enemy has a vote. And so when the enemy 
goes to a different tactic and we change the type of equipment, 
whether it is some type of counter-IED interdiction equipment 
or whether it is some of the IED-detection equipment, some of 
the Huskies and those, as I mentioned earlier, we have got to 
have that same equipment back here. Now, we have to be very 
diligent because, as we said before, there are priorities out 
there. The enemy gets a vote. And we got to put the best 
equipment in the hands of the soldiers. So if you give me a 
truck or a company full of Huskies back here, I am not going to 
give them the one unit. I am going to spread them out over 
multiple units because I want everybody to get a piece of them 
so they can train with them. Or I am going to put a piece of 
them in some of the training centers so they can go there and 
train on them. So I have got to be diligent also. I can't be 
selfish and say I want it all. But we have got to do better of 
getting more of the equipment, which is--that is why we are 
dependent upon Congress to provide us the funds. And we 
appreciate what you are doing at records levels for us. And 
then we have to use our own diligence to make sure we get it in 
the right place so that those soldiers back here can train on 
it before they go back into the theater.
    Mr. Abercrombie. I am going to go to a couple of questions 
myself then, and then we will go to a second round. Just one 
thing before I do.
    General Vaughn, I want to make sure that I fully understood 
your last statement. When you were out kind of going through 
the continuum of outlining the equipment in relation to 
personnel and so on in a kind of comparison of previous time 
and now, you didn't mention prepositioned equipment. And I am 
citing that not as a flaw, but it really is an inquiry. Am I 
correct that your formula--I shouldn't say your formula--your 
continuum that you were citing, starting say pre-2001, we had--
prepositioned equipment is very, very important in terms of 
being able to take up the training that you are talking about 
here. So if you already have that equipment out there, you are 
training on it here, you go there, you can pick it up. Now it 
seems to me we have changed that because the prepositioned 
equipment, at least my understanding is that most of it or all 
of it is essentially gone, been used in theater as you say, and 
not coming back. It is certainly not going to show up down at 
Corpus Christi or something like that for refurbishing. If you 
are behind in equipment, doesn't it also mean you don't have 
equipment that you can leave prepositioned? So, in effect, are 
you not in a situation where you are kind of working like maps 
in navigation, where the railroad car comes with the container 
just in time to get on the ship that goes out to the Pacific 
Command or out to Hawaii, let's say, and that is just in time 
delivery. So now aren't you now in a situation where instead of 
soldiers coming to prepositioned equipment, they are coming to 
a situation where you are hoping you can have the equipment 
they are going to use arrive just in time for the deployment?
    General Vaughn. Chairman, right on the money. You know, 
when I talked to you about the myth associated with the way we 
mobilized and what we were supposed to do on personnel, we were 
supposed to bring our 80 percent, and we would get rounded out 
from the active force and the Individual Ready Reserve (IRR) 
and so forth, same thing on equipment. That prepositioned 
equipment stockage--and in the old days, you remember growing 
up with the Europe kind of plans and what not, you think about 
that, the first wave moves out, the way it was explained to us 
as a young soldier, because I have often asked this question, 
where does the stuff come from? Well, first wave moves out, our 
AC formations fall in, and you take their equipment. So when 
the time came, you know, for that to happen, that wasn't 
possible. That is not what happened. We didn't have the stuff 
prepo'd to start with, and again, don't want to get into the 
details of all of it, and I know that you all see all this all 
the time. Here is the question. How much prepo stuff is built 
back someplace in the world? And oh, by the way, does that 
compete with the requirements that we have got back here on 
this side? We cross-leveled hundreds of thousands of pieces of 
equipment from state to state, from unit to unit, you know, 
back and forth to do exactly what you said. And now we don't 
have the luxury of that because we really need to be doing this 
in pre-mode training fashion.
    Mr. Abercrombie. Fine. Thank you. The reason that I asked 
that is that in my calculations in terms of what I am going to 
recommend, I want to take into account in order to get your 
equipment here to be able to train on and have the equipment 
there, I think we also have to include prepositioning equipment 
as part of the dollar equation. You don't disagree with that?
    General Vaughn. No.
    Mr. Abercrombie. And you may say--I imagine people in the 
Pentagon now, some of the budget people, like Mr. Spratt here 
are saying, Jesus, don't add in another factor, you know, on 
top of it. But I don't see any other way to do it if you are 
going to do it right. Otherwise we are kind of kidding 
ourselves. If you are going to be in for the dime, you are 
probably going to have to get in for the dollar if part of the 
dime is prepositioning that dime. So when you give me figures 
now, and I am going to go to my questions, you don't have to 
give me the exact figures now, but you will see from the 
questions, I would like you to include the full spectrum of 
what equipment refurbishment, resetting means in terms of the 
doctrine that you would like to follow or you think you should 
follow or what your mission directs you to follow. Am I making 
sense to you? Do you understand what I am going to be looking 
for?
    General Vaughn. Chairman, I think so.
    Mr. Abercrombie. We are looking for numbers in equipment 
and what you need. I don't want to leave things like 
prepositioning out simply because right now it seems like too 
far a reach.
    General Vaughn. Chairman, the only thing about the 
prepositioning piece is it is probably not the right question 
for General Stultz or myself, because that--the pre-po stocks 
become strictly a big Army piece.
    Mr. Abercrombie. No, I understand that. What I am saying is 
I am assuming--what I need to have, not necessarily from you 
per se, but what I need to have is your figures based on what 
you expect the Army to be providing as well. See, because if 
the prepositioning isn't there, that affects what your 
equipment, the kind of equipment that you can anticipate having 
at home to train on is.
    General Stultz. Yes, sir because.
    Mr. Abercrombie. Because we can't continue sending 
deployments out there, I hope you agree on this, we can't 
continue to keep sending multiple deployments out there, 
particularly of guard and reserve, if at some time in the 
future you don't count on having equipment already there.
    General Stultz. Yes, sir.
    Mr. Abercrombie. Or in the process of where we preposition 
this stuff, at some point that has got to be replaced and the 
Army has to take that into account. It can't just keep coming 
to the guard and reserve and saying, we want you here and don't 
worry, we will get you the equipment sometime, somehow, 
somewhere.
    General Stultz. Yes, sir. That is one of the reasons that 
it concerns me a lot of times when we are talking about 
authorized substitute equipment.
    Mr. Abercrombie. Yes.
    General Stultz. And we are counting that in our numbers, 
because that authorized substitute equipment assumes that there 
is going to be other equipment where we go to----
    Mr. Abercrombie. Yes.
    General Stultz [continuing]. That is the right equipment.
    Mr. Abercrombie. So General Stultz, let me start with you. 
And some of this we have already talked about and you have 
already answered, but for purposes of the record I want to take 
this down in order. And some of this is just yes and no, and 
some will require you to actually get stuff to us. Okay?
    General Stultz. Yes.
    Mr. Abercrombie. So the lack of equipment, is it not 
correct the lack of equipment in some Army Reserve units makes 
it more difficult to train for combat?
    General Stultz. Yes.
    Mr. Abercrombie. And then is my understanding correct the 
Army has formally committed, the Army now has formally 
committed to equip all Army Reserve units to a 100 percent?
    General Stultz. Yes.
    Mr. Abercrombie. If so--and that is, yes. When is that 
projected to happen by the Army?
    General Stultz. The current projections that I have been 
getting is 2019.
    Mr. Abercrombie. Okay. Now, as you have indicated, Congress 
has provided billions in additional funds for the Army Reserve 
equipment in these last few years. Is it correct that you can 
account for all of those funds? That is to say either you, 
General Vaughn, and/or the Army can account for those funds? Or 
your portion? Can you account for your portion of those funds?
    General Stultz. I can account for the equipment that I have 
received that those funds were spent on.
    Mr. Abercrombie. Okay. So the answer is that while you can 
account for the equipment, how the money was spent requires 
further inquiry from us.
    General Stultz. Yes, sir.
    Mr. Abercrombie. As to the mechanism or the logistics, if 
you will, of accounting.
    General Stultz. Yes, sir.
    Mr. Abercrombie. With the Army itself. Okay. Did you get 
the equipment and, by extension, the funding that you required 
or that you think was allocated to you by way of what the 
intention of Congress was?
    General Stultz. I guess, sir, the way I would answer that 
is it goes back to we have been given an equipment distribution 
plan from the Army that says, you will get the equipment, and 
we have been given a dollar program that says, this is the 
dollars that are going to be given to you.
    Mr. Abercrombie. Yes.
    General Stultz. I don't have the equipment in hand.
    Mr. Abercrombie. That said, the dollars I am going to say 
you have referred to previously, I forget the exact name of the 
fund, what is it?
    General Stultz. NGREA?
    Mr. Abercrombie. Yes.
    General Stultz. Yes, sir. With the NGREA funds we have been 
given in past years----
    Mr. Abercrombie. What is the correct name again?
    General Stultz. It is the National Guard Reserve Equipment 
Account.
    Mr. Abercrombie. Yes. In the National Guard Reserve 
Equipment Account is the funding and the equipment accounted 
for?
    General Stultz. Yes, sir.
    Mr. Abercrombie. Did you receive that funding, and did you 
receive that equipment?
    General Stultz. Yes, sir. That we can account for.
    Mr. Abercrombie. Okay. Because what I am thinking here is 
maybe we have to direct more funds--and so this is what, at 
least ten years old, right? I think something along those 
lines?
    General Stultz. Yes, sir.
    Mr. Abercrombie. And has that worked for ten years?
    General Stultz. Yes, sir.
    Mr. Abercrombie. If I went back ten years and asked you to 
go back for ten years, you could account for the funding and 
equipment in that fund?
    General Stultz. Yes, sir.
    Mr. Abercrombie. Because what I am thinking about is 
possibly directing more funds into that.
    General Stultz. Yes, sir.
    Mr. Abercrombie. Not to take revenge on the Army or get 
into a fight with the Army or anything like that, but for 
purposes of us being able to keep control and track of what is 
going on. I am not trying to take money away from the Army or 
anything of that nature. I am talking about accountability for 
us and for you, and most important to the serving soldier in 
the field who needs to have the equipment. I am trying to 
figure out what is the most efficient way of making this happen 
so you have confidence in that funding process and in the 
equipment which follows from that.
    General Stultz. Yes, sir.
    Mr. Abercrombie. Okay. What would you say to the idea of 
getting a series of reports to the Congress on Army Reserve 
equipment, including combat equipment and equipment needed for 
domestic emergency response? What I mean by reports is not to 
burden you with anything, but a kind of--rather than having 
hearings like we are having, you know, after the fact in point 
of fact, but something where you could kind of keep us updated? 
And by the same token--because you must be doing this 
internally anyway.
    General Stultz. Yes, sir.
    Mr. Abercrombie. So I am thinking about some idea of maybe 
every 90 days sharing with us where you are and what it is, not 
as a way of chasing you or looking over your shoulder like you 
were bad boys and girls.
    General Stultz. Yes, sir.
    Mr. Abercrombie. But rather that we stay in the loop a 
little more on this.
    General Stultz. Yes, sir.
    Mr. Abercrombie. And I will tell you the reason why I am 
thinking about doing that. Again, it is not to put a burden on 
you, but we keep getting hit with this supplemental budget 
stuff. And I think you guys have watched me long enough; I am 
not the only one. I get very exercised about this supplemental 
budget, because I think it allows us to get sloppy. It allows 
us to say, well, we will take that up later on, particularly 
where equipment is concerned. And once you start mixing up the 
regular order of budget process, as Mr. Spratt no doubt can 
attest to, and you start sloughing stuff off into the 
supplemental budgets; you don't know when a supplemental budget 
is going to be presented. You don't know when it is going to 
pass. You don't have any clear idea of what is going to be in 
it. You don't know what kind of competition for dollars is 
going to be in that. It can get lost in all kinds of political 
activity that has nothing to do with the Defense budget as such 
or appropriations. You get what I mean? You get dependent on a 
supplemental process; you are also dependent on the politics of 
it. And that puts you in a very, very I think precarious 
situation in terms of precise understanding of what you are 
going to be able to provide for your soldiers. Now I am not 
asking you to agree with that. I am making an observation. But 
I think you would be hard pressed to disagree that the 
supplemental process dependency gets you in very shaky 
territory very quickly.
    General Stultz. The timeliness and the certainty of funding 
also has a huge impact on the industrial base of us getting 
those lines started to get those trucks flowing.
    Mr. Abercrombie. I thank you. I agree with that, too. So 
that is the reason--the reason I am thinking about this report 
series is because we have stumbled into this supplementary 
budget process; we will be able to deal a lot more rationally 
with that supplemental process if we have a kind of ongoing 
report mechanism to know what things we should stick into the 
supplemental if we stumbled on the regular budget process. So I 
am thinking of that. And if you want to comment further on it 
in writing you can. But I take it from your answer right now 
you don't necessarily object to sharing that kind of 
information with us on a regular basis.
    General Stultz. No, sir.
    Mr. Abercrombie. Okay. Now, will Army Reserve units that 
are not set to deploy continue to have to give equipment up to 
ensure deploying units have what they need? Think about this. 
Have I stated it clearly?
    General Stultz. Yes, sir. It gets back to what General 
Vaughn was talking earlier about, where we have cross-leveled 
equipment to get the right equipment into the units that need 
that equipment. My intent is to stop that process. As we get 
this Army force generation process laid out, as we get these 
units going through the cycle, we should be able to stop having 
to shift equipment between units. And as the equipment flows, 
as I was saying earlier, as we start to get this equipment 
coming out of the resourcing that we are getting now, then my 
priority would be, one, get the newest equipment to the units 
that are next to deploy and move down to the next to the next 
to deploy and field it that way.
    Mr. Abercrombie. I understand that. Maybe I should make it 
a little clearer. When will that cross-leveling of equipment 
end? For the foreseeable future, unless we are able to either 
get more money to you and a manufacturing timeline that 
delivers equipment to you that you know is going to come as a 
result of that funding, am I correct that you are going to have 
to give equipment up from units that are not deployed in order 
to equip those that are being deployed?
    General Stultz. Some, but very small.
    Mr. Abercrombie. Okay.
    General Stultz. One of the reasons for that is the theater 
provided equipment now keeps us from having to cross-level a 
lot of that equipment.
    Mr. Abercrombie. All right. So that is not as big an issue 
as I might think it is?
    General Stultz. It is not as big an issue for the Army 
Reserve at this moment. I am not saying it is not an issue, but 
it is not as big an issue.
    Mr. Abercrombie. All right. That is helpful. And finally, I 
know you have mentioned 2019 and so on, but in comparison to 
the projected budgets, what additional--and this may be 
something you will have to give me in writing----
    General Stultz. Yes, sir.
    Mr. Abercrombie [continuing]. What additional funding 
requirements for the Army Reserve equipment do you see in 
fiscal year 2009 and beyond, and how much of this funding could 
the Reserve actually spend in 2009?
    General Stultz. Yes, sir. Let me submit that in writing.
    [The information referred to can be found in the Appendix 
beginning on page 77.]
    Mr. Abercrombie. You get what I am trying to get at?
    General Stultz. Yes, sir.
    Mr. Abercrombie. Because we want to do this thing, there is 
going to be more money, I think we are going to try and do 
that, we are going to do the best we can within our budget 
allocations and so on, I don't want to get into something where 
there is even a couple of hundred million dollars more than 
what you need for--I shouldn't say what you, need what you can 
actually spend.
    General Stultz. Yes, sir.
    Mr. Abercrombie. Because we are going to try to put this 
where everybody can actually spend it.
    General Stultz. Yes, sir.
    Mr. Abercrombie. It doesn't do any good to put something on 
paper for you if you don't end up go getting it, right?
    General Stultz. Exactly right.
    Mr. Abercrombie. In fact, it can end up hurting you. 
Because people then say, well, you had all this money then. Oh, 
yeah, well, gee, we didn't actually spend that or we didn't get 
it.
    General Stultz. Yes, sir.
    Mr. Abercrombie. So what I need to know, in comparison to 
the projected budgets, what additional funding requirements you 
see for equipment in 2009 and how much you can actually spend.
    General Stultz. Yes, sir.
    Mr. Abercrombie. Okay? Now, General Vaughn, again I am 
going to ask some questions in the same vein, if that is all 
right with you, even though you have essentially answered some 
of this stuff. But for the record and to get it in order, I 
take it that the lack of equipment in some Army National Guard 
units does make it more difficult for them to train for combat 
and provide support in an emergency situation?
    General Vaughn. Yes, Chairman.
    Mr. Abercrombie. Okay. And is it your understanding that 
the Army has formally committed to equip all National Guard 
units to 100 percent?
    General Vaughn. Yes, Chairman, that is true.
    Mr. Abercrombie. When is that predicted to happen?
    General Vaughn. For our brigade combat teams for the 
tactical force that is fiscal year 2015.
    Mr. Abercrombie. Okay.
    General Vaughn. And for our support formations is same with 
General Stultz, fiscal year 2019.
    Mr. Abercrombie. Okay. Again, as you have already 
indicated, we have provided buildings--billions, some 
buildings, too--in additional funds for the National Guard 
equipment. And what is your answer with respect to how you 
determine where the money has gone, whether you got the 
equipment, and whether it was siphoned off? Siphoned off is 
probably the wrong word. But whether it has been allocated 
elsewhere?
    General Vaughn. My answer, Chairman, is the same as General 
Stultz. We have exactly the same issue on that.
    Mr. Abercrombie. Okay. Then you have indicated the 
deployment plans, and as has General Stultz and his chart, 
deployment plans require five Army National Guard brigades to 
deploy next year. Are you confident those units will have all 
the equipment they need before they deploy so that they can 
properly train?
    General Vaughn. Chairman, they are----
    Mr. Abercrombie. Five brigades is the number, is it not?
    General Vaughn. Yes, it is. It is four plus one; four, and 
one into Afghanistan that takes the place of the 218th. And 
they will deploy with all the equipment that they need. Now, 
the issue being they didn't have it long enough before to 
substantially reduce the post-mobilization training time and 
increase boats on the ground. If you follow me through that.
    Mr. Abercrombie. All right. Would you support this series 
of reports or regular reports that I mentioned to General 
Stultz, which again from your testimony I think you are doing 
anyway? And because of the supplemental report activity that we 
seem to have gotten in with some degree of regularity, at least 
while the present hostilities are under way, I hope you agree 
that that would be helpful to us in trying to come up with 
realistic numbers in these supplementals that would actually 
direct something to you rather than just going off into 
something which essentially we have no--we don't engage in any 
oversight and we are just throwing numbers in the air.
    General Vaughn. Chairman, I agree with that. As you have 
said, we compound it anyway. We just need to go ahead and 
report it.
    Mr. Abercrombie. Okay. And then, finally, Army National 
Guard units that are not set to deploy, will they have to 
continue to give up equipment to ensure deploying units have 
what they need?
    General Vaughn. A great question. They are going to have to 
cross-level for some time in the future. Now, how far that is I 
don't really have worked out in my mind yet, nor have I done 
the work. There is going to be a point in time where this 
crosses. And it may be because we have two great big years of 
eight and nine. Ten, we may be pretty close to not having to 
cross-level for training.
    Mr. Abercrombie. Okay. But if you can give us something 
along those lines. And I understand this is an educated guess. 
I am not going to, you know, hold you to the 99 versus 101, 
that kind of thing. But we need that because it will help us, 
particularly when it comes to talking to Mr. Spratt or talking 
to Mr. Murtha and so on, putting together something where we 
are coordinated here. Thank you very much.
    How about a next round?
    Joe? Ready? Joe? Mr. Reyes defers to you.
    Mr. Wilson. Thank, Mr. Chairman, and thank you Congressman 
Reyes, too. Indeed, my interest in the equipment is as a member 
of the Armed Services Committee, as a veteran who served in the 
guard and reserves but also as a parent. I had one of my sons 
serve for a year in Iraq in the Army National Guard; another 
son served in Egypt. And I am just very concerned, on behalf of 
family members, as to the adequacy of equipment, the latest 
equipment. In fact, at one time there was a delay that many of 
us expressed concern about for the body armor, the Small Arms 
Protective Inserts (SAPI) plates. And that has been fully 
addressed. And I would like a verification indeed that that has 
been fully addressed and that the equipment is in place.
    General Stultz. Yes, sir. From my units that I have in 
theater currently--and I keep about 24, 25,000 Army Reserve 
soldiers mobilized between the CONUS and about 18 different 
countries--and with my frequent visits to theater, both 
Afghanistan and Iraq and the Horn of Africa, I can say that the 
soldiers that are on the battlefield over there have the 
equipment they need, and they have the latest equipment that is 
available to us.
    Mr. Wilson. Another concern that I had, we went through a 
period with the Humvees and up-arming of Humvees, and now the 
providing of MRAPs. Last month when I had the opportunity to 
visit with our units in Afghanistan, and we went by MRAP 
through Asadabad, I was really impressed by the MRAPs. But I am 
concerned there have been reports of delay in delivery. But 
what is the status on MRAPs in theater?
    General Stultz. That I can't give you an exact figure. I 
know that they are coming into theater on an accelerated basis. 
I was over there myself and drove one of them around Balad. How 
we are meeting the time schedule for that and how the 
distribution is going, I don't have that information with me.
    Mr. Wilson. And indeed as a parent, a veteran, a Member of 
Congress, I certainly would like to get an update, Mr. 
Chairman, on the providing of the MRAPs. Another issue.
    [The information referred to can be found in the Appendix 
beginning on page 80.]
    Mr. Abercrombie. Noted, Mr. Wilson, and we will take care 
of it.
    Mr. Wilson. Thank you, Mr. Chairman. And also on Monday, I 
had the privilege of being with Congresswoman Susan Davis and 
Congressman John McHugh to visit the recruiting and retention 
school at Fort Jackson. And I was very happy to hear the 
success and the environment that you have created of successful 
recruiting and retention, meeting the goals, providing for 
young people extraordinary opportunity of education, travel, 
making lifelong friends, which has really benefitted my family, 
me. I just appreciate it so much. I want to give you, though, a 
suggestion. The retirement age for the guard and reserve, 
currently it is 60. We did make an effort, successfully, to 
provide that credit for deployed time from the time of the last 
Defense Appropriations bill, but indeed many of us who are so 
pleased at the seamless nature of the active duty, Guard, 
Reserve, would like to have the retirement system equally 
seamless, like at age 55. And indeed we have been pushing for 
55, for a two-for-one credit, or--and where, for every 2 years, 
you get 1 year of credit to reduce to 55 over the service 
period of 20 years. Again, we did make progress last year with 
deployed time. And I have introduced a bill that would provide 
from 9/11 that you would have the deployment credit. And I feel 
like this would help with recruiting and retention. Do you have 
any comments that you would like to make about the retirement 
age?
    General Stultz. Yes, sir. I wholeheartedly agree with you. 
I think one of the things, I revert back to my days of civilian 
life when I worked for Procter & Gamble. And at Procter & 
Gamble, we had a simple illustration we call a value equation. 
What does a box of Tide cost, and what do you get for it? And 
if you are going to increase the price of Tide, you better 
deliver something new and improved. Well, the value equation we 
had with the Army Reserve was one weekend a month, two weeks in 
the summer. That is all we asked. And here is what you get in 
turn. You get so many dollars a month for your drill pay, you 
get 20 years and you can draw that retirement at 60. We changed 
the equation. We said now you are an operational force. Now 
every four to five years we are going to ask you to leave your 
family, leave your employer, and risk your life. And the great 
news, just like you said, soldiers are willing to do that. But 
we got to balance that equation. And that equation gets 
balanced with some pay, some incentives. But one of the things 
I think we have got to balance it with is the retirement. And 
if we say every four or five years we are going to ask you to 
go risk your life and suffer and sacrifice, then we ought to 
reduce that retirement age as an incentive and say we are going 
to knock some type time off of that. We are going to recognize 
your sacrifice for that. Likewise, I can tell you two years ago 
I was up at Fort McCoy, Wisconsin, visiting a medical hole unit 
with some wounded soldiers. One was a young staff sergeant from 
the National Guard. He was an 88 mike truck driver. He had 
served with me in Iraq. And I said, what are you going to do 
when you get home? And he said, I am getting out. And I said, 
why? And he said, the Army doesn't want me. I said, how can you 
say that? You are a combat veteran. You are a truck driver, one 
of our most critical commodities, and you are a noncommissioned 
officer (NCO), the backbone of the Army. How can you say we 
don't want you? And he said, sir, they offer me nothing to stay 
in. I have got my 20 years. I got 22 years. So I get no 
reenlistment bonus. I get nothing to stay in. Like he said, I 
love the Army, but I got to face my wife. And if I tell her I 
am reenlisting, first thing she is going to say is, what are 
you getting? And when I say nothing, she is going to chase me 
out of the house. And I said, what if we could knock off, to 
your point, 6 months for every year you stay beyond 20? So if 
you I stayed 24 years, you could retire, draw your retirement 
at 58? If you stayed 30, you could draw it at 55? And he looked 
me in the eye and said, I can sell that. I can sell that. You 
know. So I think just simply as a retention tool. Because, in 
our system, once they get 20 years of credit, what is the 
incentive to stay? Now, some would say we can't afford that, we 
can't afford to pay retirement pay five years earlier for a 
National Guard soldier. I would submit to you, what is it going 
to cost us to replace that NCO with 22 years of service and 
experience of a combat veteran? How much have we already 
invested in him in terms of enlistment and reenlistment 
incentives and training and schools and everything? But also, 
what is it going to take us to grow that experience? I don't 
think we can afford not to. So I support it wholeheartedly.
    Mr. Wilson. Thank you very, very much for your testimonial. 
Thank you.
    Mr. Abercrombie. Thank you, Mr. Wilson.
    I am going to yield, if it is okay, Mr. Reyes, to Mr. 
Spratt for a point of personal privilege.
    Mr. Spratt. General Stultz, it has been four years since I 
saw you. You have come a long way since then. We are mighty 
proud of you. He is not only my constituent, coming from 
Dillon, South Carolina, the same small town that gave us Ben 
Bernanke, but he is a graduate of Davidson College. So that 
speaks to the wisdom, that is the background of all the wisdom 
you heard enunciated from him. Good to see you.
    General Stultz. Two points away from being in the Final 
Four, sir.
    Mr. Spratt. I am not going to let you off so easy. I have 
got some clarification I would like to get. I will submit it 
for the record.
    General Stultz. Yes, sir.
    Mr. Spratt. Thank you very much indeed.
    General Stultz. Thank you, sir.
    Mr. Abercrombie. Would you like to explain your retirement 
plan to Mr. Bernanke? He seems to have his hands full today. 
Maybe he should have gone to Davidson, too. For what it is 
worth, I was pulling for them.
    General Stultz. Yes, sir.
    Mr. Abercrombie. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. I have just got a 
couple of questions. One of them follows the same vein as you 
were just talking about, but I want to switch it to 
recruitment. What kind of issues or what kind of problems are 
we having in recruiting for both the National Guard and the 
Reserves?
    General Stultz. Well, I will lead off, and then I will turn 
it over to my partner here in Clyde, but one, the good news is 
we are meeting our recruiting goals. That is the good news 
story. In the Army Reserve, this time last year we were at 
about 188,000 end strength. Today we are at almost 195. We have 
grown 7,000 in terms of the force. We have turned the trend 
around. We have learned from the National Guard how to do that. 
That is the key. I think the biggest challenge we have got 
right now, twofold, one, and it is an indictment on America, of 
the target age group that we target for recruiting in the Army, 
17- to 24-year-old males, only 3 out of 10 Americans qualify; 
40 percent can't meet the educational qualifications. Another 
percentage can't meet the moral. Another percentage can't meet 
the physical. So from there, one of the biggest challenges we 
have got right now in recruiting is finding soldiers that meet 
the qualifications. Now we are doing something about that. We 
are going after, in some cases, those soldiers that are outside 
that 17- to 24-year window. And we are finding there are a lot 
of older Americans--and I don't mean aged like me--but older 
Americans who want to serve their country. They are farther 
along in their careers, and they see this desire to serve their 
country, and they see the Guard or Reserve as an avenue to do 
that.
    But one is we have got to improve--and I am going to let 
Clyde talk to you about what the Guard is doing. It is a great 
program to improve the education of our soldiers. I think the 
other one is we have got to build a partnership with employers. 
Because one of the questions that any young man looks at, he 
says, can I join the Guard or Reserve and still have a job with 
the operational tempo? What we are doing there from the Army 
Reserve's perspective is we are partnering with a lot of the 
employers of America who have the same challenge we have. When 
the American Truckers Association are looking for truck drivers 
and they are trying to find someone who is drug free, who has 
got a certain physical fitness about them, who can pass an 
aptitude test where they can read and write and drive a truck 
and navigate and who can pass a background screening that they 
don't have anything in their records that would preclude them 
from being trustworthy; they are struggling just like we are to 
find those individuals. What I am telling the American Truckers 
Association, what I am telling the National Sheriffs 
Association, what I am telling others is, let me be a recruiter 
for you. If they are in my formation, they have already met the 
criteria. I am going to train them how to drive a truck also. I 
am going to train them in some law enforcement techniques if 
they are a military policeman. I am going to train them how to 
be an x-ray technologist in a hospital. So why wouldn't you let 
me recruit for your needs while I am recruiting for my ranks? 
And we have got some partnerships going. And I think that is 
going to be key, because now a young man coming out of high 
school looks at us and says there is an enabler to getting a 
job by joining the military.
    General Vaughn. Congressman, we have had spectacular 
success. We turned it around in July of 2005. At that time, we 
were some 20,000--you may remember the debates--we were some 
20,000 under strength. Today we are at 357,000. We have gained 
27,000 in net growth in less than 3 years. We just set a record 
this month. We hit our highest month of the year, and we went 
over it. We did several things. We changed the culture of our 
recruiting organization. And we took advantage of what we do 
best, and that is incentivize soldiers to recruit out of their 
communities and build their teams. And so we put a program 
called G-RAP into place that has just had spectacular success. 
It has also led to the highest quality force that we have ever 
had. We have our high school graduates are well over the 90 
percent target for DOD. I will tell you that one of the things, 
though, that really helps us and that has helped enormously is 
the way the soldiers and their units are welcomed when they 
come back home. They are held up as heroes. The small 
communities of this country, and we are in 3,300 communities, 
and they have welcomed them home, opened their arms to them and 
cared about them while they have been gone. And that has done a 
lot. In other words, the value proposition is probably as great 
today than it has ever been for service to the country and the 
Army National Guard. We are very proud of that. And I think 
that as long as, again, the value proposition is similar to the 
active force and they feel like the communities appreciate and 
the Nation appreciates their service, if we keep the resources 
turned on, we will be able to recruit to whatever we are asked 
to and retain whatever we are asked to at whatever strength we 
are asked to be at in the Army National Guard.
    Mr. Reyes. Great. That is good news.
    Thank you, Mr. Chairman.
    Mr. Abercrombie. Gentlemen, thank you very much. Unless 
there are further inquiries, questions or observations, I think 
we will bring the hearing to a close. I think Mr. Spratt has 
something for you, General Stultz, that he wants to pass on in 
writing.
    General Stultz. Yes, sir.
    Mr. Abercrombie. And if any of the other questions, if you 
feel it would be pertinent for you to comment a little bit 
further in writing, we would be appreciative of receiving it. 
And we will take it into account when we make our 
recommendations.
    General Stultz. Yes, sir.
    Mr. Abercrombie. Thank you very much. Aloha.
    [Whereupon, at 3:59 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             April 3, 2008

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 3, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 43480.001
    
    [GRAPHIC] [TIFF OMITTED] 43480.002
    
    [GRAPHIC] [TIFF OMITTED] 43480.003
    
    [GRAPHIC] [TIFF OMITTED] 43480.004
    
    [GRAPHIC] [TIFF OMITTED] 43480.005
    
    [GRAPHIC] [TIFF OMITTED] 43480.006
    
    [GRAPHIC] [TIFF OMITTED] 43480.007
    
    [GRAPHIC] [TIFF OMITTED] 43480.008
    
    [GRAPHIC] [TIFF OMITTED] 43480.009
    
    [GRAPHIC] [TIFF OMITTED] 43480.010
    
    [GRAPHIC] [TIFF OMITTED] 43480.011
    
    [GRAPHIC] [TIFF OMITTED] 43480.012
    
    [GRAPHIC] [TIFF OMITTED] 43480.013
    
    [GRAPHIC] [TIFF OMITTED] 43480.014
    
    [GRAPHIC] [TIFF OMITTED] 43480.015
    
    [GRAPHIC] [TIFF OMITTED] 43480.016
    
    [GRAPHIC] [TIFF OMITTED] 43480.017
    
    [GRAPHIC] [TIFF OMITTED] 43480.018
    
    [GRAPHIC] [TIFF OMITTED] 43480.019
    
    [GRAPHIC] [TIFF OMITTED] 43480.020
    
    [GRAPHIC] [TIFF OMITTED] 43480.021
    
    [GRAPHIC] [TIFF OMITTED] 43480.022
    
    [GRAPHIC] [TIFF OMITTED] 43480.023
    
    [GRAPHIC] [TIFF OMITTED] 43480.024
    
    [GRAPHIC] [TIFF OMITTED] 43480.025
    
    [GRAPHIC] [TIFF OMITTED] 43480.026
    
    [GRAPHIC] [TIFF OMITTED] 43480.027
    
    [GRAPHIC] [TIFF OMITTED] 43480.028
    
    [GRAPHIC] [TIFF OMITTED] 43480.029
    
    [GRAPHIC] [TIFF OMITTED] 43480.030
    
    [GRAPHIC] [TIFF OMITTED] 43480.031
    
    [GRAPHIC] [TIFF OMITTED] 43480.032
    
    [GRAPHIC] [TIFF OMITTED] 43480.033
    
    [GRAPHIC] [TIFF OMITTED] 43480.034
    
    [GRAPHIC] [TIFF OMITTED] 43480.035
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             April 3, 2008

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. ABERCROMBIE

    Mr. Abercrombie. I know you have mentioned 2019 and so on, but in 
comparison to the projected budgets, what additional funding 
requirements for the Army Reserve equipment do you see in fiscal year 
2009 and beyond, and how much of this funding could the Reserve 
actually spend in 2009?
    General Stultz. In FY09, the Army Reserve is projected to receive 
$1.4B in the Army base budget & request of $.5B in the supplemental. We 
need what's currently programmed in the base budget and supplemental. 
The additional funding requirements are approximately $414M to cover 
the Top 10 critical equipment items on our FY09 1-N List. We would 
obligate all of this funding in FY09.
    The Army Reserve has 66% of its authorized equipment on-hand. The 
Army has programmed $1.4B in the FY09 base budget and $502M in the FY09 
Supplemental request for new equipment procurement for the Army 
Reserve. With current equipment dollar value on-hand and projected 
programmed funding of $7.9B in the FY08 to FY13 POM and the $7.25B in 
other equipment procurement programs (Supplementals/GWOT Funding, Cong 
Adds, NGREA, etc . . .) the Army Reserve is currently short 
approximately $6.85B in new equipment procurement. The Department of 
Army projects for the Army Reserve a $2.2B for Critical Unfunded 
Requirement by the end of FY2013. At current projected funding levels 
and if funding for new equipment procurement averages approximately 
$1.3B per year and the Army does not decrement or divert funding, the 
Army Reserve is projected to be at 100% equipment on-hand in FY2019.
    The Army has never distributed a 100% of its new equipment 
procurement funding to the Army Reserve. Historically, new equipment 
procurement funding for the Army Reserve is used as bill payers for the 
Active component. Therefore, it is not feasible to expect the Army 
Reserve will be at 100% equipment on-hand by FY2019.
    Mr. Abercrombie. The average non deployed unit has about 61% of its 
authorized equipment needed to conduct training, participate in future 
deployments and respond to domestic missions. The Department of the 
Army has a plan to adequately address the equipping shortfall but not 
until 2019. Is this timeline sufficient and what risks are inherited in 
this plan of resolving this most critical issue so late?
    General Vaughn. In order to train effectively, support the current 
warfight, surge when called upon, and provide a robust domestic 
response--in other words, to fully support the National Military 
Strategy--it is absolutely critical that the ARNG be equipped to 100% 
of its requirement. Until full equipping and modernization levels are 
reached, the Nation will continue to assume risks such as 1) decreased 
readiness, 2) inadequate training of units until arrival at a 
mobilization station (which results in reduced Boots-on-the-Ground time 
and increased quantity and frequency of deployments), 3) limits our 
ability to effectively surge to support operations in Iraq, 
Afghanistan, or elsewhere, 4) longer response timelines for domestic 
missions, and 5) costly and disruptive cross-leveling of equipment 
between and among ARNG units. The Army's goal is to fully equip all 
Brigade Combat Teams by 2015 and the remainder of the force by 2019. 
Although the industrial base is capable of equipping the force much 
sooner, these goals were established based on current and anticipated 
financial constraints.
    Mr. Abercrombie. What mechanisms are in place to ensure that when 
Congress provides additional funding for Army National Guard and Army 
Reserve equipment that the Army actually follows through on executing 
the funding and prov
</pre></body></html>
